APPENDIX

THE STATE OF NEW HAMPSHIRE

JUDICAL BRANCH

NH CIRCUIT COURT

9th Circuit-Probate Division-Nashua

Telephone 1-855-212-1234

30 Spring Street Suite 103

TTY/TDD Relay: {800)735-2964

Nashua NH 03060

http ://www.court.state.nh.us

NOTICE OF DECISION

DALE SAWYER EISELE
90 HONEYPOTROAD
WEST HAVEN, CT 06516

Case Name :

Dale Sawyer Eisele v The Estate of Joseph Brodie
Smith

Case Number:

316-2019-EQ-02352

On January 16,2020, Judge Patricia B. Quigley issued orders

1A

relative to:

The petition in equity requesting the disinterment of the Joseph
Brodie Smith is DISMISSED.
Please see attached ORDER

Any Motion for Reconsideration must be filled with this court by
January 26,2020.

Any appeals to the Supreme Court must be

filed by February 15, 2020.

Sherry L. Bisson

January 16, 2020

Clerk of Court

2A

THE STATE OF NEW HAMPSHIRE
JUDICIAL BRANCH
NH CIRCUIT COURT

HILLSBOROUGH COUNTY

9TH CIRCUIT-PROBATE DIVISIONNASHUA

In re: Dale Sawyer Eisele v The Estate of Joseph
Brodie Smith
Case No: 316-2019-EQ-02352

ORDER
This matter came before the court for a hearing on Dece­
mber 27,2019 on a petition filed by Dale Sawyer Eisele seeking a
court order allowing the exhumation of the body of Joseph Brod­
ie Smith. Appearing at the hearing was the petitioner, Dale Sawy­
er Eisele. Also attending the hearing was a family member of the
petitioner.
The court has jurisdiction over the matter pursuant to RSA

290.

3A

The petitioner did not provide contact information for any
legal family member of Joseph B. Brodie,so no family member was
notified.
The petitioner provided the court with extensive pleadings
that show she has done a tremendous amount of research into
her biological and legal family history. The court has revie­
wed these documents and some of the information in this order
is gleaned from those many attachments to the petition.
This matter concerns Joseph Brodie Smith who was dece­
ased on May 8,1947.
Dale Sawyer Eisele informed the court that she wished to
exhume the body of her alleged great grandfather for various rea­
sons including to: establish a biological relationship with the dec­
edent through his DNA, to see if there are any connected medical
issues,and possibly to see whether there are any residual rights of
inheritance or other rights that would inure to her based on being
the biological issue of Joseph B. Smith.
The petitioner, Dale Sawyer Eisele alleges that Joseph
Brodie Smith is her biological great grandfather,although he is not
her legal great grandfather. Dale Sawyer Eisele understands that

4A

her grandmother was biological child of Joseph Brodie Smith bom
out of wedlock to Lilia Sawyer. The baby was adopted and renam­
ed Glady Irene Minard (DOB Oct. 23 1903) (at her death named
ed Gladys Irene Denoncourt).The birth certificate list the father as
"unknown."
Dale Sawyer Eisele's grandmother later reconnected with
Her biological mother and learned about her biological father. The
grandmother conveyed this information to DaleSawyer Eisele.Dale
Sawyer Eisele believes this information to be true and wants to
confirm the relationship by testing DNA of Joseph Brodie Smith.
The grandmother also informed Dale Sawyer Eisele that
Joseph Brodie Smith "... had a lot of money/'Under Joseph Brodie
Smith's will, his surviving spouse, Charlotte Stewartson Smith, was
the sole beneficiary. Joseph Brodie Smith did not have any identif­
ied children or issue listed in the estate administration.
The final account from the probate administration of the
estate of Joseph Brodie Smith lists the remainder in the estate,
after payment of expenses and debts (including $31,623 in legacy
and succession taxes) were a total amount of $47.83.This amount
was or should have been provided to the widow.

5A

The petitioner argues that she may be the heir of Joseph
Brodie Smith's estate because his parental rights were not termin­
ated prior to the adoption.

The court has not (and will not for a

number of reasons) done research on the adoption laws of 1903.
However, under current law (and adoption for any time for which
this judge is aware),
Brodie Smith)

if the biological father (purportedly Joseph

does not come forward and request a hearing on

paternity PRIOR TO the birth mother (Lilia Sawyer) surrendering
her parental rights (a/k/a consenting to the adoption), then the
parental rights of the biological father

(also referred to as the

"putative father"or"alleged father") are automatically terminated
by operation of law. See NH RSA 170-8:6.
Thus, Joseph Brodie Smith had no legal parental rights
after the adoption of Gladys Irene and Dale Sawyer Eisele has no
right of inheritance.
Additionally,the probate court would not reopen an estate
administration finalized more than 70 years ago.
Furthermore,
estate of $47.83,

there was a total amount remaining in the

all of which would go to the surviving spouse

whether the estate of Joseph Brodie Smith was testate ( with a

6A

will or intestate (without a will). If there were any children, they
would not receive anything.
Based on the information provided at the hearing,the court
finds and rules as follows:

The court finds there is no legitimate

reason for the request to exhume the body of Joseph Brodie
Smith. The court informed the petitioner at the hearing that her
great grandmother, by virtue of being adopted, no longer has a
legal relationship with Joseph Brodie Smith. Joseph Brodie Smith,
by not being on the birth certificate of petitioner's grandmother,
had not established paternity of the child. The petitioner's curio­
sity about her biological kinship is not a legally sufficient reason
to disinter the body of Joseph Brodie Smith.
The petition in equity requesting the disinterment of the
Body of Joseph Brodie Smith is DISMISSED.
SO ORDERED
January 16,2020^ »•****••.

"s/"

Date

7A

THE STATE OF NEW HAMPSHIRE

SUPREME COURT

in Case No. 2020-0089, Dale Sawyer Eiseie v. The Estate of
Joseph Brodie Smith, the court on May 18,2020, issued the
following order:
On March 30, 2020, Dale Sawyer Eiseie was ordered to
file her brief on or before April 29,2020. Dale Sawyer Eiseie failed
to file a brief as ordered. Consequently, the appeal is dismissed.
See Rule 16(12) (explaining that failure of appealing party to file
brief will result in dismissal of appeal).

Appeal dismissed .
This order is entered by a single justice (Bassett,!) See
Rule 21 (7).

8A

Timothy A. Gudas
Cterk

Distibution:
9th N. H. Circuit Court - Nashua Probate Division, 316-2019-EQ02352
Honorable Patricia B. Quigley
Ms. Dale Sawyer Eisele
File

9A

THE STATE OF NEW HAMPSHIRE

SUPREME COURT

In Case No. 2020-0089, Dale Sawyer Eisele v The Estate
of Joseph Brodie Smith, the court on September 3,2020,

issued

the following order:

Supreme Court Rule 22 (2) provided that a party filing a
motion for rehearing or reconsideration shall state with particul­
arity the points of law or fact that she claims the court has over­
looked or misapprehended in the decision dismissing this appeal
due to Dale Sawyer Eisele's failure to file a brief as ordered. Accor­
dingly, upon reconsideration, we affirm the May 18, 2020 decis­
ion and deny the relief requested in the motion.
Relief requested in motion for

10A

reconsideration denied.

Hicks, Bassett,Hantz Marconi, and Donovan, JJ., concurred.

Timothy A. Gudas
Clerk

11A

Address and Telephone Numbers of Courts

State of New Hampshire
9th Circuit - Probate Division - Nashua
30 Spring Street, Suite 103
Nashua, New Hampshire 03060
Telephone Number 1-855-212-1234

New Hampshire Supreme Court
1 Charles Doe Drive
Concord, New Hampshire 03301

Telephone Number 603-271-2646

12A

